BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 1 copy of the
foregoing Petition for Writ of Certiorari in North
Cypress Medical Center Operating Company, Ltd., et al.
v. Cigna Healthcare, et al., was sent via Next Day
Service to the U.S. Supreme Court, and via Next Day
Service and e-mail service to the following parties
listed below, this 18th day of September, 2020:
Joshua B. Simon
Warren Haskel
Dmitriy Tishyevich
McDermott Will & Emery, L.L.P.
340 Madison Avenue
New York, NY 10173-1922
(212) 547-5630
jsimon@mwe.com
Counsel for Respondents
Daniel L. Geyser
Counsel of Record
Alexander Dubose & Jefferson LLP
Walnut Glen Tower
8144 Walnut Hill Lane, Ste. 1000
Dallas, TX 75231
(214) 396-0441
dgeyser@adjtlaw.com
Counsel for Petitioners

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on September 18, 2020.

Donna J. Wol
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

Notary Public

1

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Comrrission Expires
February 14, 2023

